U.S. Department of Agriculture
 Office of Inspector General
 Financial and IT Operations
         Audit Report



   SECURITY OVER INFORMATION
 TECHNOLOGY RESOURCES AT THE
NATIONAL AGRICULTURAL STATISTICS
            SERVICE




               Report No.
               26099-1-FM
               May 2001
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:                May 14, 2001

REPLY TO
ATTN OF:      26099-1-FM

SUBJECT:      Security Over Information Technology Resources at the National Agricultural
              Statistics Service

TO:           R. Ronald Bosecker
              Administrator
              National Agricultural Statistics Service


This report presents the results of our audit of the Security Over Information Technology
Resources at the National Agricultural Statistics Service (NASS). The report identifies
weaknesses in NASS’ ability to protect its critical information technology resources.
NASS has corrected a substantial number of the problems found, and has aggressively
implemented plans to correct the remaining areas of concern.

Your response to our draft report is included in Exhibit A, with excerpts incorporated in the
findings and recommendations section of the report. Based on the information provided in
the response, we have reached management decision on all recommendations in the
report. Please follow your internal procedures in forwarding documentation of final action
to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us during this audit.

        /s/


ROGER C. VIADERO
Inspector General
                                    EXECUTIVE SUMMARY




                                            We identified weaknesses in National
          RESULTS IN BRIEF                  Agricultural Statistics Service’s (NASS) ability
                                            to adequately protect sensitive information from
                                            inappropriate disclosure, and critical operations
              from disruption. Significant information security weaknesses were identified
              during our review including inadequately restricted access to sensitive data.
              Although this and other identified weaknesses placed critical NASS
              operations at risk of disruption of service and inappropriate disclosures,
              prompt action by NASS has mitigated a majority of the weaknesses
              identified. NASS relies on its information technology (IT) infrastructure to
              supply market-sensitive data on commodities to the agricultural community.
              NASS’ ability to accomplish this mission would be jeopardized if its IT
              infrastructure were compromised.

                   To test the vulnerability of NASS to the threat of internal and external
                   intrusions, we conducted an assessment of selected NASS networks, using
                   a commercially available software product, which is designed to identify
                   vulnerabilities associated with various operating systems. Our assessments,
                   performed in November and December 2000, identified 71 high and
                   medium risk IT security vulnerabilities1 and numerous low risk vulnerabilities.
                   These vulnerabilities could have allowed an attacker to gain complete
                   administrative privileges of NASS’ network. Once this administrative
                   privilege is established, an attacker could obtain, modify or destroy critical
                   NASS data. During our fieldwork, NASS officials advised us that they took
                   immediate action to implement the changes and enhancements necessary to
                   resolve each of the high and medium risk vulnerabilities we identified. NASS
                   also took immediate action to protect its internal network by ensuring the
                   proper configuration of its firewall. Further, NASS began efforts to conduct
                   its own scans of its systems on a periodic basis to identify and mitigate
                   known vulnerabilities.

                   Additionally, we found that NASS had not developed a configuration program
                   for its systems. A configuration program ensures that all systems are
                   configured alike by routinely updating all systems with security patches and
                   other software updates. We believe this corporate level approach to system
1
 High-risk vulnerabilities are those that provide access to the computer, and possibly the network of computers. Medium-risk
vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk
vulnerabilities. Low -risk vulnerabilities are those that provide access to sensitive, but less significant network data.

USDA/OIG-A/26099-1-FM                                                                                                 Page i
            configuration, along with regularly scheduled vulnerability assessments and
            remediation of the risks discovered, would substantially enhance the security
            of NASS’ computer systems.

            We found that NASS needs to improve its management of IT resources, and
            ensure compliance with existing Federal requirements for managing and
            securing IT resources. NASS has not (1) identified their mission essential
            infrastructure (MEI) or conducted the necessary risks assessments of their
            networks as required by Presidential Decision Directive (PDD) – 63; (2)
            adequately documented network security in their security plan as required by
            the Office of Management and Budget (OMB) Circular A-130; (3) prepared
            for potential service disruptions by developing a comprehensive contingency
            plan; or (4) properly certified to the security of their major systems. We found
            that NASS’ managers, who are responsible for ensuring adequate security,
            have not evaluated the adequacy of their computer-based controls, or fully
            identified risks to their systems.

            Our audit disclosed that NASS had weak controls over access to its
            sensitive data and systems at both the SSO’s and headquarters. Because
            SSO’s were allowed to configure their systems, there was little oversight by
            headquarters personnel to ensure that access controls were functioning
            properly.    Headquarters personnel stated that the access control
            weaknesses were overlooked in the daily operation of the computer system.

            The types of weaknesses we found in our audit made it possible for persons
            to inappropriately modify or destroy sensitive data or computer programs or
            inappropriately obtain and disclose confidential information. In today’s
            increasingly interconnected computing environment, inadequate access
            controls can expose agency information and operations to attacks from
            remote locations by individuals with minimal computer or
            telecommunications resources and expertise. NASS officials have begun to
            take corrective action to correct the weaknesses identified.

                                          We recommended that NASS:
 KEY RECOMMENDATIONS

        •   Ensure corrective actions are taken on the vulnerabilities we identified.
        •   Periodically scan its network for vulnerabilities and track corrective actions to
            assure remediation.

        •   Adopt a corporate level approach to include establishing minimum security
            guidelines for the various operating systems used by NASS. Periodically
            assess those settings and correct those that have been misapplied.
        •   Ensure NASS compliance with PDD-63 and OMB requirements by
            identifying NASS’ MEI; performing a vulnerability assessment of the MEI; and
            establishing a remediation plan for correcting the vulnerabilities.
USDA/OIG-A/26099-1-FM                                                                Page ii
        •   Update the NASS Security Plan to include all areas required by OMB
            A-130, and provide more comprehensive information, as required.
        •   Document a comprehensive contingency plan and initiate procedures for
            periodic testing of the contingency plan.
        •   Correct identified access control weaknesses.


                                     The NASS agreed with our recommendations
    AGENCY RESPONSE                  and has initiated significant corrective actions.




                                     We concurred with the NASS’ proposed
        OIG POSITION                 corrective actions   and      have reached
                                     management decision on all recommendations.




USDA/OIG-A/26099-1-FM                                                         Page iii
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS ................................................................................................ii
   AGENCY RESPONSE..........................................................................................................iii
   OIG POSITION........................................................................................................................iii
TABLE OF CONTENTS ...........................................................................................................iv
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVES..........................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................2
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1.............................................................................................................................4
   VULNERABILITIES EXPOSE NASS SYSTEMS TO THE RISK OF MALICIOUS
   ATTACKS FROM INTERNAL AND EXTERNAL THREATS .........................................4
   FINDING NO. 1 ........................................................................................................................4
   RECOMMENDATION NO. 1 .................................................................................................7
   RECOMMENDATION NO. 2 .................................................................................................7
   RECOMMENDATION NO. 3 .................................................................................................8
   RECOMMENDATION NO. 4 .................................................................................................8
   CHAPTER 2.......................................................................................................................... 10
   NASS INFORMATION SECURITY PROGRAM MANAGEMENT NEEDS
   IMPROVEMENT................................................................................................................... 10
   FINDING NO. 2 ..................................................................................................................... 10
   RECOMMENDATION NO. 5 .............................................................................................. 13
   RECOMMENDATION NO. 6 .............................................................................................. 13
   RECOMMENDATION NO. 7 .............................................................................................. 14
   RECOMMENDATION NO. 8 .............................................................................................. 14
   RECOMMENDATION NO. 9 .............................................................................................. 15

USDA/OIG-A/26099-1-FM                                                                                                               Page iv
   RECOMMENDATION NO. 10............................................................................................ 15
   RECOMMENDATION NO. 11............................................................................................ 16
   CHAPTER 3.......................................................................................................................... 17
   NASS LOGICAL ACCESS CONTROLS NEED IMPROVEMENT. ............................ 17
   FINDING NO. 3 ..................................................................................................................... 17
   RECOMMENDATION NO. 12............................................................................................ 18
   RECOMMENDATION NO. 13............................................................................................ 19
   RECOMMENDATION NO. 14............................................................................................ 19
   EXHIBIT A – NASS Response To Draft Report........................................................... 21
ABBREVIATIONS ................................................................................................................... 29




USDA/OIG-A/26099-1-FM                                                                                                          Page v
                             INTRODUCTION

                                       Information security is critical for any
       BACKGROUND                      organization that depends on information
                                       systems and computer networks to carry out its
                                       mission or business. Computer security risks
         are significant, and they are growing. The dramatic expansion in computer
         interconnectivity and the exponential increase in the use of the Internet are
         changing the way our government, the nation, and much of the world
         communicate and conduct business. However, without proper safeguards,
         these developments pose enormous risks that make it easier for individuals
         and groups with malicious intentions to intrude into inadequately protected
         systems and use such access to obtain sensitive information, commit fraud,
         disrupt operations, or launch attacks against other organizations’ sites.
         Further, the number of individuals with computer skills is increasing, and
         intrusion, or “hacking” techniques are readily available and relatively easy to
         use. This environment poses a threat to the sensitive and critical operations
         of the National Agricultural Statistics Service (NASS) and puts it at high risk.

           NASS administers the U.S. Department of Agriculture’s (USDA) program of
           collecting, compiling, and disseminating current national and state
           agricultural statistics.    NASS’ primary activities are the collection,
           summarization, and analysis of data for publication of accurate and reliable
           agricultural forecasts and estimates. Statistical data developed by NASS on
           the nation’s agriculture are essential for the orderly development of
           production and marketing decisions by farmers, ranchers, and agribusiness.
           This data is also used for defining and carrying out agricultural policy related
           to farm program legislation, commodity programs, agricultural research, rural
           development, and related activities.

           NASS issues the official state and national agricultural production and
           marketing estimates relating to (1) the number of farms and land in farms,
           acreage, yield and production of grains, grain stocks, hay, oilseeds, cotton,
           some fruits and vegetables, floriculture and other specialty crops; (2)
           inventories and production of hogs, cattle, sheep and wool, catfish, trout,
           poultry, eggs, dairy products; (3) prices received by farmers; (4) prices paid
           by farmers for inputs and services, cold storage stocks, agricultural labor and
           wage rates; and (5) other agricultural subjects. Information for the official
           estimates is gathered from many sources, using a variety of means.

           The information is entered through NASS’ network of Local Area Networks
           (LAN), and uploaded through data communications to a mainframe computer

USDA/OIG-A/26099-1-FM                                                              Page 1
          where data files are stored and processed. Data from the surveys are
          edited on the mainframe computer, or are edited and summarized on
          personal computers at the State Statistical Offices’ (SSO). The SSO’s also
          transmit computer data containing survey indicators and recommended
          estimates to Headquarters using data communications. Corn, cotton,
          soybeans, sweet oranges, winter wheat, and other spring wheat have been
          designated as “speculative” commodities. Data for these commodities are
          encrypted and handled under special security procedures in the “lockup”
          facility, where the official statistical estimates are generated, because of the
          sensitivity of the data and its potential impact on the futures market prices of
          the commodities involved.

          For “non-speculative” commodities that have been classified as sensitive,
          data communications are not encrypted and the estimates are finalized
          before the “lockup.”

                                      The objectives of this audit were to (1) assess
        OBJECTIVES                    the threat of penetration of NASS data systems
                                      by intruders; (2) determine the adequacy of
                                      security over the Local and Wide Area
         Networks; and (3) assess NASS management’s role in ensuring compliance
         with the Office of Management and Budget (OMB) and Departmental
         requirements related to information technology (IT) security.

                                        We tested the NASS computer network to
           SCOPE                        identify vulnerabilities that could enable
                                        unauthorized users to access sensitive data
                                        stored on or transmitted over NASS’ systems.
          We conducted our assessment at the NASS Headquarters in Washington,
          D.C., as well as conducting limited testing at 4 of 45 SSOs. The sample of
          SSOs was selected based on the type of connectivity used by the SSOs, and
          other considerations. We used commercial software applications to assist
          us in our security reviews of over 100 NASS network components.

          The audit was conducted in accordance with Government Auditing
          Standards. Our testing was performed between October 2000 and January
          2001.




                                       To accomplish our audit objectives,            we
      METHODOLOGY                      performed the following procedures:


              •   We reviewed IT security policies and procedures issued by the Office


USDA/OIG-A/26099-1-FM                                                             Page 2
                 of the Chief Information Officer (OCIO) and NASS.

             •   We interviewed NASS officials responsible for managing the
                 agency’s computer systems.

             •   We conducted vulnerability scans of the systems at NASS’
                 Headquarters and four SSOs.

             •   We performed detailed testing of NASS’ entity-wide security
                 program, both physical and logical access controls, segregation of
                 duties, and service continuity at the NASS headquarters by analyzing
                 records and controls established to ensure that the security of the
                 NASS’ computer systems was sufficient.




USDA/OIG-A/26099-1-FM                                                        Page 3
                    FINDINGS AND RECOMMENDATIONS

                              VULNERABILITIES EXPOSE NASS SYSTEMS TO
    CHAPTER 1                 THE RISK OF MALICIOUS ATTACKS FROM
                              INTERNAL AND EXTERNAL THREATS
                                             Our vulnerability scans of selected NASS
           FINDING NO. 1                     systems disclosed severe weaknesses in the
                                             system security administration. Specifically, we
                                             found that (1) scans of selected NASS systems
                                             disclosed a large number of vulnerabilities that
could be exploited from both inside NASS’ network, and externally; and (2) system settings
did not provide for optimum security, nor were they uniform throughout NASS. OMB
Circular A-130 requires agencies to assess the vulnerability of information system assets
identify threats quantify the potential losses from threat realization; and develop
countermeasures to eliminate or reduce the threat or amount of potential loss. NASS had
not taken sufficient actions to identify and eliminate security vulnerabilities within its
systems. As a result, NASS’ systems and networks are vulnerable to cyber-related
attacks, jeopardizing the integrity and confidentiality of NASS’ critical economic data.

We conducted our assessment of selected NASS networks between November and
December 2000. We utilized two commercial off-the-shelf software products, one
designed to identify over 800 vulnerabilities associated with various operating systems that
use Transmission Control Protocol/Internet Protocol (TCP/IP)2, and the other, which tests
system settings in Novell networks.

TCP/IP System Vulnerabilities

We conducted our vulnerability scans at five NASS locations. These scans included 104
NASS network components. We also tested the firewall established by NASS as
protection between NASS’ systems and the departmental telecommunications network.
Our assessments revealed 71 high and medium-risk vulnerabilities.3 In addition, we
identified 209 low-risk vulnerabilities. The high and medium vulnerabilities, if left
uncorrected, could allow unauthorized users access to critical and sensitive NASS data.
Additionally, the large number of low vulnerabilities identified, indicates the need to
strengthen system administration.

2
  The TCP/IP is a series of protocols originally developed for use by the US Military and now used on the Internet as the primary
standard
3
          for the movement of data on multiple, diverse platforms , such as Windows NT and UNIX.
  High-risk vulnerabilities are those that provide access to the computer, and possibly the network of computers. Medium-risk
vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk
vulnerabilities. Low -risk vulnerabilities are those that provide access to sensitive, but less significant network data.



USDA/OIG-A/26099-1-FM                                                                                                   Page 4
Detailed below are examples of the high-risk vulnerabilities revealed during our scans of
the NASS systems:

    •   A commonly used program to transfer electronic mail contains a vulnerability that
        could allow an attacker to gain complete administrative privileges of the system.
        Once this administrative privilege is established, an attacker could obtain, modify
        or destroy critical NASS data.

    •   Programs used on web servers to provide enhanced functionality could allow an
        attacker to execute commands on the server that could provide them with such
        critical information as the server’s password file. The attacker could use this
        password file to obtain or destroy other data on the server.

    •   We scanned NASS’ systems from outside the firewall to assess the level of
        protection the firewall was providing. Our tests showed that the firewall was not
        properly configured to protect the NASS internal network.

Based upon our tests, a management alert dated November 21, 2000, was issued to
NASS officials describing the vulnerabilities detected and the severity of each. The
management alert also reported the incorrect configuration of NASS’ firewall. On
December 6, 2000, NASS advised us that they had implemented the changes and
enhancements necessary to resolve each of the high and medium-risk vulnerabilities
reported in the management alert. Additionally, NASS took immediate action to correct
the problems with their firewall configuration. On February 26, 2001, NASS informed us
that they will evaluate commercially available tools for performing vulnerability assessments
for the UNIX, Novell, and NT operating systems during fiscal year (FY) 2001. NASS plans
to review licensing opportunities with other departmental agencies. NASS plans to acquire
the recommended packages after October 1, 2001, either independently or as part of a
larger USDA group.         Once the recommended tools for performing vulnerability
assessments is obtained, NASS will conduct vulnerability assessments on a quarterly
basis beginning in January 2002

We found that NASS had not developed a configuration management program for its
systems. A configuration management program ensures that all systems are configured
alike by routinely updating all systems with recent security patches and other software
updates. We believe this corporate level approach to system configuration, along with
regularly scheduled vulnerability assessments and remediation of the risks discovered,
would substantially enhance the security of NASS’ computer systems.




Novell System Policies

We conducted a detailed assessment of the security of the Novell networks at five sites.
Our assessment software allowed us to compare NASS’ established security practices to


USDA/OIG-A/26099-1-FM                                                                Page 5
the actual settings on the Novell systems. We also compared the system’s security
settings to the software product’s “best practices settings,” which are based on standard
practices from a wide variety of government and private institutions. The software product
reports weaknesses that may leave the system open to potential threats in the following
areas (1) account restrictions; (2) password strength; (3) access control; (4) system
monitoring; (5) data integrity; and (6) data confidentiality.

Our assessments disclosed significant weaknesses in account restrictions, password
strength, and access controls; the areas that define a user’s ability to access the system.
Our tests also showed the need for a configuration management program, as discussed
above. We found that the Novell security settings were not consistently applied throughout
the agency, varying from one site to another. For example, six grace logins 4 were allowed
at two sites tested, while at two other sites, only one grace login was allowed. Some
additional weaknesses we found included:

           •    User accounts were hidden from the system administrator. This raises concern
                because hidden accounts are often used as a means to set up a “back door” to
                the server. These accounts hold administrator access privileges, which are the
                most trusted users on a Novell system and allow complete control of the system.
                Additionally, because of these privileges, unauthorized users can modify system
                logs to hide their activities from the system administrator. This condition was
                noted at three of the five sites we visited.

           •    An excessive number of persons with administrator authorities were found at
                three of the five locations tested. We found 8 of 102 users, 5 of 97 users, and
                36 of 729 users were admin equivalent at three NASS sites tested.
                Additionally, at one NASS field office, we noted that NASS had failed to remove
                user accounts belonging to another agency, including some accounts with
                administrator privileges.

           •    A large number of inactive accounts that had not been disabled were noted on
                all five networks tested. For example, almost 80 percent of all accounts on one
                network were inactive, while 24 percent of 625 user accounts were inactive at
                another site tested. User accounts that become inactive, but not disabled,
                provide opportunities for unauthorized users to gain access to the network. An
                attacker can try different passwords on these inactive accounts and attempt to
                gain access to the network. Once that access is gained, unauthorized activity
                cannot be traced to the responsible person.

In addition to the vulnerabilities identified by our scans, our audit work identified other
vulnerabilities affecting the security of the NASS networks:

      •    Our review of 127 login IDs showed the use of alphanumeric characters for
           passwords was not required, and a minimum password length less than 6

4
    Grace logins refer to the number of times the user can log into a system without changing their password after it has expired.

USDA/OIG-A/26099-1-FM                                                                                                    Page 6
      characters was found for 16 of the 127 login IDs. A password made up of a
      combination of letters and numbers make passwords more difficult for unauthorized
      users to guess. Additionally, when only alpha characters are allowed in a password,
      users are more likely to assign common words or names as passwords making
      them easier for an unauthorized user to guess. Finally, passwords less than six
      characters in length are easier for an unauthorized user to guess.

  •   The feature to lockup a computer after failed login attempts was not enabled. Our
      testing showed that the system allowed unlimited attempts to guess the correct
      password. With this feature disabled, unauthorized persons could use a password
      cracker to attempt to access the system. At the completion of our audit, NASS
      personnel enabled the lockout feature so the system would lock after three
      unsuccessful login attempts.

                                         Ensure corrective actions are taken on all high
 RECOMMENDATION NO. 1                    and medium vulnerabilities identified on the
                                         assessment reports provided to NASS officials.

            Agency Response

            NASS has implemented solutions to resolve all of the high-risk
            vulnerabilities, and has mitigated all medium-risk vulnerabilities.

            OIG Position

            Management decision has been reached on this recommendation.

                                         Assess low vulnerabilities to identify trends and
 RECOMMENDATION NO. 2                    initiate action on those areas that together or in
                                         aggregate could lead to more serious
                                         vulnerabilities.

            Agency Response

            NASS has resolved over 50 percent of the 209 vulnerabilities through both
            direct and indirect action. NASS continues to evaluate solutions for the




USDA/OIG-A/26099-1-FM                                                              Page 7
           low-risk vulnerabilities that have not been resolved. There are some low-risk
           vulnerabilities that NASS acknowledges and accepts the risks.

           OIG Position

           Management decision has been reached on this recommendation.

                                    Obtain software to enable NASS to scan its
 RECOMMENDATION NO. 3               entire network, develop procedures to assure
                                    periodic assessments are performed; and
                                    methodology is developed to track and assure
       correction of disclosed vulnerabilities.

           Agency Response

           The OCIO has solicited interest from agencies regarding the acquisition of
           software for vulnerability testing. NASS has agreed to participate in this
           acquisition and has money available for an October 1, 2001, acquisition.
           NASS will begin vulnerability testing of our network within 90 days of product
           acquisition, therefore about January 1, 2002. Once the initial testing is
           complete, NASS will continue to conduct the tests on a quarterly basis.
           NASS will strive to resolve all high vulnerabilities within a week and medium
           vulnerabilities within three weeks. NASS will report high and medium risk
           vulnerabilities that are not resolved within 30 days to the OCIO.

           OIG Position

           Management decision has been reached on this recommendation.

                                Adopt a corporate level approach to
 RECOMMENDATION NO. 4           configuration management. Develop a policy
                                establishing    minimum     security    setting
                                guidelines for the various operating systems
       used by NASS. Periodically assess those settings and correct those that
       have been misapplied.

           Agency Response

           NASS has just completed a merging process that enables our
           implementation of centralized configuration management. NASS has
           standardized some security setting guidelines and will continue to review
           and standardize configuration parameters during May. NASS is adopting
           the “Best Practices” for most of the configurable security settings. NASS will
           continue with this review and implementation during May.

           NASS is in the process of reviewing the roles that may allow us to define a


USDA/OIG-A/26099-1-FM                                                            Page 8
          specific role for specific responsibilities.    This should allow better
          management and more flexibility in identifying and monitoring the various
          groups’ activities because they would only be capable of performing required
          functions. NASS plans to implement roles by July 1, 2001.

          OIG Position

          Management decision has been reached on this recommendation.




USDA/OIG-A/26099-1-FM                                                         Page 9
                      NASS INFORMATION SECURITY PROGRAM
 CHAPTER 2
                      MANAGEMENT NEEDS IMPROVEMENT

                                              NASS needs to improve its management of IT
            FINDING NO. 2                     resources, and ensure compliance with existing
                                              Federal requirements for managing and
                                              securing IT resources. NASS has not (1)
                                              conducted the necessary risks assessments of
their networks; (2) adequately planned for network security and contingencies; or (3)
properly certified to the security of their major systems. This occurred because NASS has
not placed a priority on OMB Circular A-130 requirements such as risk assessments,
security plans, contingency planning, and system certifications. NASS relies on its IT
infrastructure to supply market-sensitive data on commodities to the agricultural economy.
NASS’ ability to accomplish its mission may be jeopardized if it cannot properly secure its
IT infrastructure.

The OMB, Circular A-130, Appendix III, “Security of Federal Automated Information
Resources,” established a minimum set of controls for agencies’ automated information
security programs, including certifying to the security of any systems that maintain sensitive
data, establishing contingency plans and recovery procedures in the event of a disaster,
and establishing a comprehensive security plan. Further, PDD 63, “Policy on Critical
Infrastructure Protection,” requires agencies to assess the risks to their networks and
establish a plan to mitigate the identified risks.

Risk Assessments

Risk assessments, as defined by OMB, are a formal, systematic approach to assessing
the vulnerability of information system assets identifying threats quantifying the potential
losses from threat realization; and developing countermeasures to eliminate or reduce the
threat or amount of potential loss. Additionally, PDD 63 requires agencies to proactively
manage and protect its MEI. According to PDD 63, MEI is defined as the systems, the
hardware the systems runs on, the personnel who operate the systems, the buildings where
the systems reside, and users of the systems. Specific requirements of PDD 63 include
(1) identifying MEI; (2) assessing the vulnerability of the MEI; (3) establishing a remediation
plan for correcting vulnerabilities; and (4) creating a system for responding to significant
infrastructure attack.

We found that NASS had not identified threats to network security by performing the
required risk assessments of its networks. Our testing revealed that NASS submitted a list
of its sensitive systems to OCIO as part of the Department’s efforts to identify its
infrastructure, but no further action was taken by NASS.              We found that a




USDA/OIG-A/26099-1-FM                                                                Page 10
comprehensive security assessment has not been performed of the NASS infrastructure
and network since 1997. Additionally, we found that an assessment of NASS’ critical
systems has not been performed.

Until updated risk assessments are completed, NASS cannot be assured that all of the
risks attributable to its mission critical systems are identified and that appropriate steps
are taken to mitigate these risks.

Security Plans

Our review disclosed that NASS had not prepared security plans that adequately
addressed the requirements of OMB Circular A-130. OMB requires agencies to prepare a
security plan to provide an overview of the security requirements of their systems.5
Security plans should define who has responsibility for system security, who has authority
to access the system, appropriate limits on interconnectivity with other systems, and
security training of individuals authorized to use the system. In addition, USDA
Departmental Manual 31406 requires each agency to submit an automated data
processing security plan or an annual update to an existing plan to the OCIO.

The current NASS Security Plan does not include a designation of the agency official
responsible for security over NASS’ major applications. Some requirements were clearly
missing from the plan, such as the Incident Response Capability and System
Interconnection. Additionally, in discussing NASS’ major applications, the plan did not
address (1) application rules; (2) specialized training; (3) personnel security; (4)
contingency planning; (5) technical controls; (6) information sharing; and (7) public access
controls, all of which are required by OMB Circular A-130. As a result, NASS cannot be
assured it has adequately addressed its security needs and that security policies and
practices have become an integral part of its operations.

Contingency Plans and Backup/Recovery Plans

Although NASS had a contingency plan in place, it was not sufficiently comprehensive to
ensure an adequate recovery in the event of a disaster or other major disruption in service.
We also found that NASS did not regularly backup its system files, and had not adequately
tested its contingency plan. As a result, NASS cannot be assured that its network can be
quickly and effectively recovered to accomplish its mission in the event of an emergency.

OMB Circular A-130 requires that agencies plan for how they will continue to perform their
mission or recover from the loss of application support in the event of a system failure.
While contingency plans can be written to make a distinction between the recovery from
system failure and recovery of business operations, OMB Circular A-130 states that
reliance on information technology and the push toward e-government makes the return to
manual processing an unrealistic option to disaster recovery. For this reason, an agency

5
 The Computer Security Act of 1987 also requires that security plans be developed for all Federal computer systems that contain
sensitive information.
6
 DM 3140-1.1, Part 9.

USDA/OIG-A/26099-1-FM                                                                                             Page 11
should have procedures in place to protect information resources and minimize the risk of
unplanned interruptions, and a plan to recover critical operations should interruptions occur.
Although often referred to as disaster recovery plans, controls to ensure service continuity
should address the entire range of potential disruptions from minor interruptions to major
natural disasters. Further, OMB A-130 states that contingency plans be tested; as
untested or outdated contingency plans create the false sense of the ability to recover in a
timely manner.

NASS uses the Business Continuity Plan prepared during its Year 2000 (Y2 K) conversion
effort as its contingency plan. However, the Y2K plan was not comprehensive, as it
focused entirely on the preparation of monthly activity reports, and did not address potential
service disruptions beyond Y2K. For example, the plan did not identify resources that
would be needed to perform critical, time sensitive operations in the event of a disaster.
Also, NASS operations were not prioritized for reestablishing the most critical operations
first in the event of an emergency. Without this detail, the contingency plan cannot be
adequately tested and therefore would be of little use in minimizing the disruption of system
failure.

While NASS has back-up and off-site storage procedures in place; due to problems with
its tape archival system, the off-site storage procedures have not been in effect since June
2000. If faced with an emergency, NASS would not have access to up-to-date information
and would lose months worth of data. Management officials were aware of the problem,
but did not address it until our audit. NASS is currently working to reload old tapes and
reconcile them to the database. NASS was unable to provide a date when this process
will be completed.

System Certification/Authorization

NASS has never performed system certifications and authorizations as required by OMB
Circular A-130. Without adequate certification and authorization of the 26 NASS critical
systems, it cannot be assured that adequate security controls have been established for
those systems and that appropriate controls are operating effectively. NASS systems are
used to collect, compile and analyze data for agricultural forecasts and estimates which are
critical to its operations and to the agricultural economy.

OMB A-130 requires agencies to provide a written authorization by a management official
for the system to process information. Management authorization is based on an
assessment of management, operational, and technical controls. Authorization is
supported by a technical evaluation7, risk assessment, contingency plan, and signed




7
    The technical evaluation may also be referred to as a certification review.

USDA/OIG-A/26099-1-FM                                                               Page 12
rules of behavior. Re-authorization should occur after any significant change in the system,
but at least every 3 years. It should be done more often where there is high risk and
potential magnitude of harm.

In summary, the lack of risk assessments, adequate security and contingency plans, and
system certifications for such key operations as the compilation and analysis of data for
agricultural forecasts and estimates places NASS operations at high risk. NASS
management needs to take an active role in IT security to ensure that the security
vulnerabilities disclosed by our audit are timely and effectively corrected.

Our review of the Department’s FY 2000 Federal Managers’ Financial Integrity Act
(FMFIA) Report showed that NASS and the Office of the Chief Financial Officer did not
report the lack of an adequate IT security management program. This material weakness
should have been reported under Section 2 of the FMFIA Report.

                                           Develop a time-phased corrective action plan to
  RECOMMENDATION NO. 5                     address the weaknesses noted in this report.
                                           Provide quarterly updates to the OCIO on the
                                           status of corrective actions until all material
problems are remediated.


               Agency Response

               NASS plans to have centralized configuration management for security
               implemented by October 1, 2001. We believe this will lead to a significant
               reduction in the number of security concerns currently identified. NASS will
               provide quarterly updates to the OCIO on June 30 and September 30, 2001
               detailing the current implementation status for each of the recommendations
               presented in the OIG audit report.

               OIG Position

               Management decision has been reached on this recommendation.

                                           Take actions to comply with PDD-63 and OMB
  RECOMMENDATION NO. 6                     requirements by identifying NASS’ MEI;
                                           performing a vulnerability assessment of the
                                           MEI; and establishing a remediation plan for
correcting the vulnerabilities.

               Agency Response

               NASS will identify its mission essential infrastructure (MEI), assess the
               vulnerabilities associated with the MEI and establish a remediation plan for
               correcting vulnerabilities. NASS plans to be in full compliance with PDD-63


USDA/OIG-A/26099-1-FM                                                              Page 13
          and OMB Circular A-130 by August 1, 2001.

          OIG Position

          Management decision has been reached on this recommendation.

                                      Perform risk assessments of NASS critical
 RECOMMENDATION NO. 7                 systems, and update the NASS Security Plan to
                                      include all areas required by OMB A-130 and
                                      the Department.

          Agency Response

          NASS will update the NASS Security Plan so that it includes all areas
          required by OMB Circular A-130 and the Department by August 1, 2001.
          NASS will perform a risk assessment of critical systems by September 1,
          2001.

          OIG Position

          Management decision has been reached on this recommendation.

                                      Resolve the archival tape problems and resume
 RECOMMENDATION NO. 8                 off-site storage practices.



          Agency Response

          A backup system has been operational since October 1999. The system
          performs backups on a daily basis. In June 2000, we experienced a
          hardware failure that resulted in restoring the database back to March 2000.
          Some data was inaccessible following this failure. During this time period,
          the tapes normally retained off-site were kept in-house to aid the file
          restoration process. Steps were taken and the backup process was
          modified to retain a backup copy of the database. Since NASS recovered
          from this failure backups have been completed according to the established
          routine. This routine includes the system files. A review of the logs is
          completed daily to ensure that tape backups have occurred as scheduled.
          Off-site storage activities have returned to the normal.




USDA/OIG-A/26099-1-FM                                                        Page 14
          OIG Position

          Management decision has been reached on this recommendation.

                                       Prepare a comprehensive contingency plan and
 RECOMMENDATION NO. 9                  initiate procedures for annual testing of the plan.


          Agency Response

          NASS has prepared a contingency plan for the lockup area. The hardware
          and software required for implementing the lockup contingency plan have
          been acquired. The plan is scheduled to be tested during the next lockup.

          There is a team currently working on a contingency plan for the state offices
          and headquarters LAN environment. They held their first meeting in
          Washington during the week of April 2. Draft recommendations should be
          available for review by May 1. NASS plans to begin implementing a
          contingency plan for the states and headquarters during the summer of 2001.
          There will be aspects of this implementation that will be budget dependent
          and will be implemented as budget is available. The initial implementation of
          this plan will be tested in February 2002. The plan will be tested annually in
          February thereafter.

          OIG Position

          Management decision has been reached on this recommendation.

                                       Establish a program to perform system
 RECOMMENDATION NO. 10                 certification/authorizations of all NASS critical
                                       systems in compliance with OMB A-130.


          Agency Response

          NASS feels that we evaluate current systems on an annual basis to ensure
          that adequate security controls are in place. NASS has reviewed OMB
          Circular A-130 and will perform the system certifications and authorizations
          required. NASS plans to be in full compliance with A-130 by August 1, 2001.



          OIG Position

          Management decision has been reached on this recommendation.



USDA/OIG-A/26099-1-FM                                                           Page 15
                                     Until appropriate corrective action is completed,
 RECOMMENDATION NO. 11               report the lack of an effective IT security
                                     management program as a material weakness
                                     in the NASS FMFIA report.

          Agency Response

          NASS plans to have an effective IT security management program
          implemented and operational by September 30, 2001. However, if there are
          any portions of the program that have not been implemented at that time, or
          are questionable, NASS will report them under Section 2 of the Federal
          Managers’ Financial Integrity Act (FMFIA ) Report.

          OIG Position

          Management decision has been reached on this recommendation.




USDA/OIG-A/26099-1-FM                                                        Page 16
                                NASS LOGICAL ACCESS CONTROLS NEED
    CHAPTER 3
                                IMPROVEMENT.
                                          NASS did not sufficiently ensure that only
           FINDING NO. 3                  authorized users had access to its networks;
                                          that users were properly authorized to access
                                          network resources; and that users’ access
                                          authority was not excessive as it relates to the
performance of their job functions. Because SSO’s were allowed to configure their
individual systems, there was little oversight by headquarters personnel to ensure that
access controls were functioning properly. Headquarters personnel stated that the access
control weaknesses were overlooked in the daily operation of the computer system. In
today’s increasingly interconnected computing environment, inadequate access controls
can expose NASS’ critical data and operations to attacks of unauthorized disclosure,
modification, or deletion of data by individuals with minimal computer or
telecommunications resources and expertise.

Access controls should provide reasonable assurance that computer resources (data files,
application programs, and computer-related facilities and equipment) are protected
against unauthorized modification, disclosure, loss or impairment. Such controls include
physical controls, such as keeping computers in locked rooms to limit physical access, and
logical controls, such as security software programs designed to prevent or detect
unauthorized access to sensitive files. During our review, we noted sufficient controls over
the physical access to NASS’ systems; however, we identified weaknesses in the logical
controls over the systems. The lack of logical access controls exposes the agency’s
systems and data to unauthorized use, modification or deletion.

We found NASS systems contained accounts that belonged to users who were no longer
employed. Further, we noted instances of user accounts and passwords being shared by
numerous employees. These vulnerabilities occurred in some of NASS’ most sensitive
systems.

Our review of NASS’ user accounts found two accounts still active for users no longer
employed by NASS. We found one active account with system administrator8 privileges
that belonged to an employee who retired from NASS in May 2000. NASS subsequently
contracted with this employee to work on a test database, but had not removed the user’s
administrative access, which included the ability to modify NASS’ critical Estimates
Database. Another NASS account, used to access its data at the National Information
Technology Center, belonged to another retired NASS employee. We found that this
account has been accessed after the retirement date of this employee. On investigating,
NASS officials found that a current employee was using the account for routine NASS


8
    System Administrator privileges provide complete control and modification ability to the system.



USDA/OIG-A/26099-1-FM                                                                                  Page 17
business. They took immediate steps to ensure the account was properly converted for use
by the current user.

We also identified 150 generic user accounts on the NASS LAN. Of the 150 generic
accounts, 44 had access to NASS’ critical Estimates Database. NASS allows the use of
these accounts to avoid having to reestablish user-specific accounts for every statistical
estimate reporting period. Generic accounts make it impossible for system administrators
to track the actions of users in the event that inappropriate or malicious action is taken.
NASS established procedures to require that the accounts be disabled when not in use
and that they be assigned to an individual user; however, we found that NASS had not
followed these procedures and allowed the accounts and the passwords to be shared by
several users. Of the 150 generic accounts, NASS had only disabled 2 of them, even
though our tests showed that 85 of the 150 accounts had expired passwords. Over half of
the expired passwords were more than a year old, with 31 of them dating back as far as
1992. Further, these accounts were routinely established with global access privileges,
which included the ability to create, modify, and erase files, and were not changed
according to users’ access requirements. Finally, one of these generic user accounts had
the ability to grant rights to other users. The user of this account could circumvent the
system administrator’s ability to limit the access controls of these generic accounts.


                                          Immediately delete all accounts and access
 RECOMMENDATION NO. 12                    authorities, including application, program, and
                                          remote access for all separated employees.

             Agency Response

             NASS reviewed all user accounts on the Headquarters servers in
             Washington, D.C. and is in the process of reviewing the servers located in
             other offices. NASS deactivated 54 of the 150 generic accounts that had not
             been used since early 2000. These accounts will remain deactivated until
             September 2001 at which time they will be reviewed. If there is not a request
             for one of these accounts to be reactivated prior to September 2001, the
             account will be deleted from the server. The generic accounts that remained
             active are used on a frequent basis. We will document who has access to
             each generic account and change the password whenever someone no
             longer requires rights.

             NASS evaluated all user IDs on the system and found a number of them that
             had become dormant over time. NASS disabled 21 of these accounts.
             These accounts will be deleted in September if there is no activity. NASS
             prefers to initially disable accounts because there may be files that will be
             required by the replacement as part of their job function. NASS will establish
             a policy, by June 1, requiring that accounts be disabled for 90 days and then
             deleted.



USDA/OIG-A/26099-1-FM                                                             Page 18
             Only current NASS employees have accounts on the NASS Access Server
             that provides remote access to the NASS environment.

             The ability for any non-supervisory user to grant rights to other users will be
             removed by May 1, 2000. NASS is in the process of removing the ability that
             certain NASS user IDs had that enabled them to grant rights to specific
             areas. As of May 1, 2001, only a centralized group will be able to grant
             rights. The requests for the modification of rights will need to be sent from a
             supervisor to the Technical Services Branch’s official mailbox. This will
             centralize and coordinate the granting of rights and will provide a paper trail
             of the requests.

             OIG Position

             Management decision has been reached on this recommendation.

                                    Reduce the number of shared accounts to those
  RECOMMENDATION NO. 13             needed and used on a regular basis. In
                                    addition, disable accounts not in use, and adjust
                                    the rights assigned to those accounts to each
user’s needs. Where shared accounts are needed, set expiration periods to a short
timeframe to guard against misuse.

             Agency Response

             NASS is reviewing all shared accounts. A balance needs to be reached
             which provides flexibility for the usage of these accounts while simultaneously
             maintaining a high level of security. The Agency will begin disabling these
             accounts, in June, when they are not in use. NASS will limit the number of
             concurrent logins to one for these accounts during May.

             OIG Position

             Management decision has been reached on this recommendation.

                                          Review user privileges to ensure they are
 RECOMMENDATION NO. 14                    restricted to access required in the performance
                                          of the users job.




USDA/OIG-A/26099-1-FM                                                              Page 19
          Agency Response

          NASS has reviewed user privileges as part of the merging process. NASS
          is trying to implement containers (groups) representing the required
          activities. Privileges, or rights, are now being assigned to the container and
          staffs are included in the container. This makes it much easier to see what
          privileges are available and who has them. Staff are simply added or
          deleted from the container as assignment rotations occur and the privileges
          associated with the container remain unchanged.

          NASS is in the process of evaluating and modifying the methodology
          currently used for rights. This activity will take time. Current access
          requirements must be reviewed and decisions made on the proper
          implementation so that users are not inadvertently denied access to
          information required for task completion. There are currently over 16,000
          rights assigned. While this may imply a high level of security it is nearly
          unmanageable and very difficult to find exactly who has which rights to what.
          NASS is implementing numerous activities that will ensure that privileges are
          granted correctly. These activities are being implemented as part of the
          centralized configuration management.

          OIG Position

          Management decision has been reached on this recommendation.




USDA/OIG-A/26099-1-FM                                                          Page 20
EXHIBIT A – NASS Response To Draft Report




NOTE: Portions of this response have been redacted due to inclusion of
sensitive information.



USDA/OIG-A/26099-1-FM                                                    Page 21
USDA/OIG-A/26099-1-FM   Page 22
USDA/OIG-A/26099-1-FM   Page 23
USDA/OIG-A/26099-1-FM   Page 24
USDA/OIG-A/26099-1-FM   Page 25
USDA/OIG-A/26099-1-FM   Page 26
USDA/OIG-A/26099-1-FM   Page 27
USDA/OIG-A/26099-1-FM   Page 28
                          ABBREVIATIONS


FMFIA     Federal Managers’ Financial Integrity Act
FY        Fiscal Year
IT        Information Technology
LAN       Local Area Networks
MEI       Mission Essential Infrastructure
NASS      National Agricultural Statistics Service
OCIO      Office of the Chief Information Officer
OMB       Office of Management and Budget
PDD       Presidential Decision Directive
SSO       State Statistical Offices
TCP/IP    Transmission Control Protocol/Internet Protocol
USDA      United States Department of Agriculture
Y2K       Year 2000




USDA/OIG-A/26099-1-FM                                       Page 29
